20-72
No.

In The

Supreme Court of the United States
Bobby Campbell,
Petitioner,
V.

Bottling Group LLC.,
Respondents.
On Petition for a Writ of Certiorari to the United States Court
of Appeals for the Second Circuit

PETITION FOR A WRIT OF CERTIORARI

FILED
JAN 3 0 2021
OFFICE OF THE CLERK
SUPREME COURT. U S

QUESTIONS PRESENTED
"Context:

In 1973 this Court established the McDonnell

Douglas analysis for Title VII employment discrimination cases.
This analysis is a three-step burden-shifting framework now
used for summary judgment motions: If 1) a plaintiff
establishes a prima facie case of discrimination, then 2) the
defendant-employer must provide a legitimate and
non-discriminatory reason for the adverse employment action at
issue; if, and only if, such a reason has evidentiary support, then
3) the plaintiff must show that the defendant’s reason was
pretext for discrimination.2 A result implying discrimination
sends the case to a jury otherwise it ends.
A prima facie case consists of: 1) plaintiff being part of a
protected class; 2) plaintiff having been qualified for the
position; 3) plaintiff having been fired; and 4) the firing implying
discrimination.3 Discrimination can be implied by the
employer’s less favorable treatment of the plaintiff compared to

1 McDonnell Douglas Corp. v. Green, 411 U.S. 792 (1973).
2 Morales, 374 F. Supp. 3d at 268.
Id.

I

a similarly situated employee, a comparator, outside of the
protected class who committed comparable conduct.4 This
creates another factual issue: whether the defendant’s reason is
pretext for discrimination.5
Finding discrimination is, therefore, essential. The result
directly leads to either dismissal or a jury. Without direct
evidence, finding differently treated similarly situated
comparators is key. This factual finding is often made by courts
without a uniform method.
1.

Does the 7th Amendment to the United States

Constitution prohibit courts from measuring degrees of
similarity to grant summary judgment on the factual issue of
who is a similarly situated employee, and is a uniform objective
standard the proper way to decide this issue?
2.

Can an accuracy disclaimer of a map website used to

track miles, and knowledge that a mileage calculation does not
perfectly track actual routes reasonably support that a mileage
report was fabricated or knowingly inaccurate?

*Id.
5 Campbell, No. 19-1345-cv at 6.

II

PARTIES TO THE PROCEEDINGS BELOW
Petitioner Bobby Campbell was the Plaintiff in the United-------States District Court for the Western District of New York and
the Appellant at the United States Court of Appeals for the
Second Circuit. Respondent Bottling Group, LLC, was the
Defendant in the District Court and the Appellee in the Court of
Appeals.
CORPORATE DISCLOSURE STATEMENT
Petitioner Bobby Campbell is an individual and brings the
claims in this matter on his own behalf. Respondent Bottling
Group, LLC is a subsidiary of Pepsico, Inc.
RELATED CASES
Morales v. Bottling Grp., LLC, 374 F. Supp. 3d 257 (W.D.N.Y.
2019)

III

TABLE OF CONTENTS
QUESTIONS PRESENTED-------------------------

I

PARTIES TO THE PROCEEDINGS BELOW

III

CORPORATE DISCLOSURE STATEMENT

III

RELATED CASES

III

TABLE OF CONTENTS

IV

TABLE OF AUTHORITIES

VI

PETITION FOR WRIT OF CERTIORARI

1

OPINIONS and ORDER BELOW

1

JURISDICTION

2

CONSTITUTIONAL PROVISION INVOLVED
Amendment VII

3

FEDERAL RULE OF CIVIL PROCEDURE INVOLVED

3

Rule 56. Summary Judgment

3

STATUTORY PROVISION INVOLVED

4

STATEMENT OF THE CASE
I. FACTS.

5

II. PROCEDURAL HISTORY.
REASONS FOR GRANTING THE PETITION
I. Varied Application of the Mcdonnell Douglas Analysis
Widely Eviscerates 7th Amendment Rights.

A. THERE IS AN IMPORTANT AND RECURRING
PROBLEM.

3

6

10
13
13
14

1. A Comparator “Checklist” Is Better Than The Varied
15
Measuring Of Degrees Of Similarity.
II. Petitioner Was Entitled To Deference And Good Math 19
22
CONCLUSION

IV

APPENDIX A: Opinion of the United States Court of Appeals
for the Second Circuit, Filed May 21, 2020
APPENDIX B: Opinion of the United States District Court for
the Western District of New York, Filed April 15, 2019
APPENDIX C: Order of the United States Court of Appeals for
the Second Circuit, Denying Rehearing, Filed September 8,
2020
APPENDIX D: Counterstatement to Plaintiffs Statement of
Material Facts
APPENDIX E: Memorandum of Law in Support of Defendant’s
Motion for Summary Judgment

V

TABLE OF AUTHORITIES
Cases
McDonnell Douglas Corp. v. Green, 411 U.S. 792 (1973).

I

Green v. McDonnell Douglas Corp., 318 F. Supp. 846 (1970).

13

Wimbley v. Cashion, 588 F.3d 959 (8th Cir. 2009)

15

Coleman v. Donahoe, 667 F.3d 835, (7th Cir. 2012)

15

Lewis v. City of Union City, 918 F.3d 1213 (11th Cir. 2019)

16

Graham v. Long Island Railroad, 230 F.3d 34, 40 (2d Cir. 2000).

16

Blaise v. Verizon N.Y. Inc., No. 19-1028 (2nd Cir. March 19, 2020)

18

Tolan v. Cotton, 572 U.S. 650 (2014).

20

Rules and Statutes
Federal Rule of Civil Procedure 56(a)

passim

42 U.S.C. § 2000e-2(a)(l)

passim

Other Authorities
Suja A. Thomas, Reforming The Summary Judgment Problem: The
Consensus Requirement, 86 Fordham. L. Rev. 2241 (2018).

1

NASA, Mars Climate Orbiter, NASA Space Science Coordinated
Archive (last visited January 15, 2021)

4

C. William Thomas, The Rise and Fall of Enron, J. of Accountancy
(April 1, 2002)

4

Brief in Opposition For Respondent, Ameer Siddiqui v. NetJets
Aviation, Inc., No. 19-500 at 10.

VI

14

PETITION FOR WRIT OF CERTIORARI
Bobby Campbell respectfully petitions for a writ of certiorari to
review the judgment of the United States Court of Appeals for
the Second Circuit.
OPINIONS and ORDER BELOW
The order of the Court of Appeals for the Second Circuit
denying rehearing for Docket number 19-1345, dated September
8, 2020, is unreported. (Appendix A)
The opinion of the Court of Appeals for the Second Circuit (App.
B) is a summary order and unreported but found by its
reference: Campbell v. Bottling Grp., No. 19-1345-cv (2d Cir.
May. 21, 2020). (Appendix B)
The opinion of the District Court for the Western District of
New York (App. C) is reported at Morales v. Bottling Grp., LLC,
374 F. Supp. 3d 257 (W.D.N.Y. 2019). (Appendix C)

1

JURISDICTION
On Thursday, March 19, 2020, this Court issued an Order
granting an extension of time to file petitions allowing 150 days
from a final order or denial of rehearing. The Court of Appeals
for the Second Circuit affirmed the District Court’s decision on
May 21, 2020. The Second Circuit then denied rehearing on
September 8, 2020. The Order of the Supreme Court of the
United States allows until February 4, 2021 for this Petition.
The Court’s jurisdiction is invoked under 28 U.S.C. § 1254(1).

2

CONSTITUTIONAL PROVISION INVOLVED
Amendment VII
In suits at common law, where the value in controversy shall
exceed twenty dollars, the right of trial by jury shall be
preserved, and no fact tried by a jury, shall be otherwise
reexamined in any court of the United States, than according to
the rules of the common law.
U.S. Const, amend. VII
FEDERAL RULE OF CIVIL PROCEDURE INVOLVED
Rule 56. Summary Judgment
(a) Motion for Summary Judgment or Partial Summary
Judgment. A party may move for summary judgment,
identifying each claim or defense — or the part of each claim or
defense — on which summary judgment is sought. The court
shall grant summary judgment if the movant shows that there
is no genuine dispute as to any material fact and the movant is
entitled to judgment as a matter of law. The court should state
on the record the reasons for granting or denying the motion.
Fed. R. Civ. P. 56(a)

3

STATUTORY PROVISION INVOLVED
Title VII of the Civil Rights Act of 1964
It shall be an unlawful employment practice for an employer - to
fail or refuse to hire or to discharge any individual, or otherwise
to discriminate against any individual with respect to his
compensation, terms, conditions, or privileges of employment,
because of such individual’s race, color, religion, sex, or national
origin.

42 U.S.C. § 2000e-2(a)(l)

4

STATEMENT OF THE CASE
This case is about miscalculation. Using the wrong unit
of measure cost NASA a quarter-billion-dollar robot on Mars.6
Tricky accounting by Enron caused $74 billion in public losses.7
Pepsi’s subsidiary, Bottling Group LLC’s, mileage audit caused
the firing of only Black employees in the merchandiser position.
Petitioner, Bobby Campbell, was one of them. Mr. Campbell
sued for discrimination but he lost in summary judgment.
The lower courts decided that the audit showed Mr.
Campbell had no similarly situated co-workers and thus was not
discriminated against. The facts and the math show the
contrary and should have been enough to defeat summary
judgment because the relevant legal standards were satisfied.
All that remained was a factual mathematical issue concerning

6 NASA, Mars Climate Orbiter, NASA Space Science Coordinated Archive
(last visited January 15, 2021),
https://nssdc.gsfc.nasa.gov/nmc/spacecraft/displav.action?id=1998-073A#:~:te
xt=Launch%20costs%20are%20estimated%20at.and%20Mars%20are%20favo
rablv%20aligned.

7 C. William Thomas, The Rise and Fall of Enron, J. of Accountancy (April 1,
2002),
https://www.iournalofaccountancv.com/issues/2002/apr/theriseandfallofenron.
html

5

the audit. A jury should resolve this issue.
I. FACTS.
To illustrate the main point, the facts are taken directly from
the lower court opinions and two of Respondent’s District Court
filings for summary judgment:
1) Counterstatement to Plaintiffs Statement of Material Facts
filing for summary judgment in the District Court attached as
Appendix [D].
2) Memorandum of Law in Support of Defendant’s Motion for
Summary Judgment attached as Appendix [E].
In September of 2014, Bobby Campbell started working at
Bottling Group’s Rochester, New York location. Mr. Campbell
was hired to be an Account Merchandiser (“Merchandiser”).
This meant that he had to drive between Bottling Group’s
distribution plant and various stores to manage their supply of
Pepsi products. Merchandisers use their own cars for this
work-related travel and then submit reimbursement requests
based on their work mileage. Mr. Campbell also went through
the appropriate training and policy reviews that one would

6

expect at the commencement of a new job. This included an
in-store service process guideline that Merchandisers were
required to follow.1
Mr. Campbell knew that he needed to submit his mileage
for reimbursement and he was instructed by his superior that
he could count miles between Bottling Group’s plant and stores.
Aside from that. Bottling Group’s training and policies “did not
contain a policy pertaining to tracking mileage ... did not
contain a procedure pertaining to tracking mileage ...
Merchandisers were not required to drive a set number of
miles.”9 Apparently this meant that, “[tjherefore, [Mr.] Campbell
was aware of the mileage policy. ”10 There was no mileage policy.
Mr. Campbell “received an annual raise and was awarded
‘Employee of the Month’” while he was employed at the
Rochester location.11 Problems began in the Spring of 2015. Mr.
Campbell had some performance issues due to health problems

Memo of Law 57-11 pp.2-3
9 Counterstatement 64-main pp.3-4
10 Id.
11 Memo of Law 57-11 at 5

7

and had three different supervisors leading up to his
termination.12 The first two were White; the last one was Black.
13 These problems are not the focus here because Bottling
Company claimed that a mileage reimbursement audit was the
only reason Mr. Campbell was fired.14
In June of 2015, Mr. Campbell’s superiors first brought
up his mileage reimbursement requests.15 His superiors
thought his mileage was too high, so Mr. Campbell offered to
compromise; no deal ended up being necessary. The next week,
his superiors performed an audit of mileage reimbursement
requests for ten Merchandisers: seven were White, two were
Black, and one was Hispanic.16 The audit looked at the same
time period for each Merchandiser.
The audit worked like this: The supervisor reviewed the
store stops and entered the general location of each store into

12 Id. at .6-9
13 Id. at 5
14 Counterstatement 64-main p.8
15 Memo of Law 57-1 lat 9-10
16 Id. at 10

8

MapQuest to calculate the total amount of miles that
Merchandiser drove while on the job.17 Miles between Bottling
Group’s Rochester plant were also added to each Merchandiser’s
totals.18 The MapQuest result was compared to each
Merchandiser’s mileage report. “The amount of miles driven
depends on the shift.”19 MapQuest disclaims accuracy and
Respondent acknowledged that the “mileage calculation did not
‘perfectly track[] the actual routes taken by merchandisers’. ”20
For the relevant time period, Mr. Campbell reported that
he drove 1,876 miles; the MapQuest result was 1,299 miles.
This is a 577 mile difference and accounted for $331.78 of
reimbursement. Mr. Campbell was fired on July 6, 2015.21 His
superiors said that over-reporting miles violated the company
rule against misrepresentation of facts or falsification of

17 Id.
18 Id.
19 Counterstatement 64-main p.4
20 COA 2 p.5
21 Memo of Law 57-11 at 11

9

company records.22
A White Merchandiser reported that he drove 730 miles;
the MapQuest result was 694 miles, which is a 36 mile
difference.23 Another White Merchandiser reported that he
drove 460 miles; the MapQuest result was 404 miles, which is a
56 mile difference.24 Neither was fired.26 Mr. Campbell drove
many more miles than the White Merchandisers by any
measure, logically allowing for more MapQuest miscalculation.
In addition to Mr. Campbell, Respondent also fired Roberto
Morales for reporting more miles than the audit. Mr. Morales
also sued for employment discrimination. No White
merchandisers were fired despite having reported more miles
than the audit.
On July 10, 2015, Bottling Group made and distributed a
mileage policy.26 Mr. Campbell was unable to resolve the issue

22 Id.
23 Counterstatement 64-main p.6 footnote 9
24 Id.
25 Id. at 22-23
26 Id. at 7

10

with the company and then began this litigation after receiving
an EEOC right to sue letter.
II. PROCEDURAL HISTORY.
Mr. Campbell timely filed his Complaint in the Western
District of New York on August 29, 2016 suing for
discrimination based on his race and color in violation of Title
VII of the Civil Rights Act of 1964, 42 U.S.C. §§ 2000e to
2000e-17 (2018) (“Title VH”).27 After discovery, Bottling Group
moved for summary judgment and won on April 15, 2019.28 The
crux of the District Court decision was the court finding that
Mr. Campbell “ha[d] not established that non-minority,
similarly situated employees were treated more favorably than
him.”29 The District Court highlighted the difference in a
miscalculated over-reporting percentage between Mr. Campbell
and the White Merchandisers, and “[did] not find this vast
difference to be ‘comparable conduct’. ”30 Mr. Morales's lawsuit

27 Memo of Law 57-11 at 13
28 Morales v. Bottling Grp., LLC, 374 F. Supp. 3d 257 (W.D.N.Y. 2019).
29 Id. at 270
30 Id.

11

was combined with this one and dismissed for the same reasons.
Mr. Campbell timely appealed the decision to the Second
Circuit and the Court of Appeals affirmed on May 21, 2020.31
The Second Circuit also hinged its decision on the mileage
discrepancy from the MapQuest audit. Specifically, the validity
of the audit was found not to be an improper factual or
credibility determination despite the MapQuest accuracy
disclaimer and Bottling Group’s knowledge that the audit did
not track actual routes taken by Merchandisers.32 The Second
Circuit decided that the disclaimer and fake route calculations
did not support that the audit report was fabricated or
knowingly inaccurate.33 Lastly, the Second Circuit did not find
the White Merchandisers to be similarly situated to Mr.
Campbell solely because of the difference in the number of miles
over-reported according to the audit.34
Mr. Campbell timely filed a petition for rehearing but the

31 Campbell v. Bottling Grp., No. 19-1345-cv (2d Cir. May. 21, 2020)
32 Id. at 5
33

Id.

34 Id. at 6

12

Second Circuit ordered that petition denied on September 8th,
2020.35 Mr. Campbell now petitions this Court for a writ of
certiorari.

35 Appendix A

13

REASONS FOR GRANTING THE PETITION
I. Varied Application of the Mcdonnell Douglas Analysis
Widely Eviscerates 7th Amendment Rights.
First and foremost, the Court in Mcdonnell Douglas
created the eponymous framework after the District Court fully
tried the case.36 Moreover, the Court ordered a retrial using the
new framework.37 This analysis was meant for factfinders,
nonetheless, courts use it to decide whether to send a case to
factfinders. This has resulted in courts deciding vital issues of
fact, primarily, who is a similarly situated comparator, with
vague tests and without adequate evidence review.38 This Court
should formally adopt a “checklist” method to determine who is
a comparator. This works for any fact pattern, avoids rigid
definitions, and preserves 7th Amendment rights to a jury trial.

36 Green v. McDonnell Douglas Corp., 318 F. Supp. 846 (1970).
37 McDonnell Douglas, 411 U.S. at 807.
38 Suja A. Thomas, Reforming The Summary Judgment Problem: The
Consensus Requirement, 86 Fordham. L. Rev. 2241 (2018).

14

A. THERE IS AN IMPORTANT AND RECURRING
PROBLEM.
Constant pain signifies a medical problem. In law, and in
history, constant complaints signify the dire need for a solution.
This Court receives countless petitions to define,
“similarly situated,” according to an opposition to a petition for
this Court to solve the issue.39 The Court has repeatedly denied
these petitions, and the problem has worsened.40 We are at the
point in this area of law where rolling dice better predicts
summary judgment survival than does researching case law. It
is time for a real solution.

39

Brief in Opposition For Respondent, Ameer Siddiqui v. NetJets Aviation,
Inc., No. 19-500 at 10.
40 See Pet. for Writ of Cert., Trask v. Shulkin, 137 S. Ct. 1133 (2017) (No.
16-513), 2016 WL 6069225; Pet. for Writ of Cert., Burley v. National
Passenger Rail Corp., 136 S. Ct. 1685 (2016) (No. 15-1104), 2016 WL 837385;
Pet. for Writ of Cert., Paske v. Fitzgerald, 136 S. Ct. 536 (2015) (No. 15-162),
2015 WL 4651685; Pet. for Writ of Cert., Hoffman v. Baylor Health Care
System, 136 S. Ct. 45 (2015) (No. 14-1323), 2015 WL 2085233; Pet. for Writ of
Cert., Johnson v. Securitas Sec. Services USA, Inc., 135 S. Ct. 1715 (2015)
(No. 14- 951), 2015 WL 495313; Pet. for Writ of Cert., Shipman v. United
Parcel Service, Inc., 135 S. Ct. 981 (2015) (No. 14-558), 2014 WL 6334236;
Pet. for Writ of Cert., Bone v. G4S Youth Services, LLC, 133 S. Ct. 1252
(2013) (No. 12-704), 2012 WL 10646763.

15

B. A Comparator “Checklist” Is Better Than The
Varied Measuring Of Degrees Of Similarity.
Without a uniform standard, courts will continue to use
vague tests that subject cases to the views of individual judges
rather than ensure that the law is correctly applied and the
Constitution is respected.
1. No Uniform Method Exists Among The Circuits
The 8th Circuit looks to see if comparators are “similarly
situated in all relevant respects,” allowing it to choose to ignore
differences in severity of similar conduct.41 The 7th Circuit
checks whether similarly situated employees are directly
comparable in all material respects and permits ignoring “minor
differences” in supervisors, job roles, and conduct severity.42
The 11th Circuit actually made a checklist: same basic conduct;
same employment policies; same supervisor; same disciplinary

41 Wimbley v. Cashion, 588 F.3d 959 (8th Cir. 2009), (Finding a single
accidenta 1 pepper spray discharge to be similar to two intentional discharges
used in conjunction with physical abuse).
42 Coleman v. Donahoe, 667 F.3d 835, (7th Cir. 2012), (Applying a flexible
standard to find knife wielding attackers, with different job functions and
supervisors, similarly situated to an employee who made a threat).

16

history.43 The checklist works better than a nicely worded test
because it provides a nearly objective binary standard instead of
allowing courts to measure degrees of similarity and
impermissibly decide issues of fact. Simply put, checklists
prevent miscalculation. Vague tests can be easily misapplied
and cause varied results even within the same circuit.
2. No Uniform Method Exists Even Within A Circuit
Second Circuit case law exemplifies why a uniform
checklist is proper. A main McDonnell Douglas case in that
circuit highlighted that “[wjhether two employees are similarly
situated ordinarily presents a question of fact for the jury,” and
made a two-item checklist to decide the issue: 1) subject to same
workplace standards; and 2) conduct of comparable seriousness.
44 The Second Circuit there decided that the District Court
impermissibly decided questions of fact because the comparators
also violated company policy, and a “jury could further

43 Lewis v. City of Union City, 918 F.3d 1213 (11th Cir. 2019), (Finding no
comparator because different employment policies applied and different
conduct was at issue).
44 Graham v. Long Island Railroad, 230 F.3d 34, 40 (2d Cir. 2000).

17

rationally find that a violation for excessive absenteeism and
one for alcohol use were of comparable seriousness in light of the
categorical standard contained in the ... agreements. ”45 Issues
of fact were left to a jury, unlike in this case where facts were
weighed.
The Second Circuit here found that Mr. Campbell had no
similarly situated comparators by measuring degrees of
similarity and impermissibly deciding issues of fact. The Second
Circuit here decided there was no comparable conduct of
comparable seriousness because a 60 mile overreport was less
than a 577 mile overreport. This was despite the comparators
doing the same conduct, having the same job, supervisors,
workplace policy (existent or not), and similar overreport
proportions46. The only differences were race and total mile
counts.
3. A Checklist Is The Solution
Twenty years of case law is not why these cases were

45 Id. at 43.
46 See the mathematical analysis that was due, infra Section II.

18

decided differently. The Second Circuit’s reasoning in another
2020 case, Blaise v. Verizon,*1 would have resulted in Mr.
Campbell defeating summary judgment. There, the test for
similarly situated was a checklist: 1) same discipline standards,
and 2) comparable conduct.48 Like in Graham, the Second
Circuit in Verizon only looked at the conduct and not the degree
of similarity. The comparators and the plaintiff there all altered
time sheets in violation of company policy and thus the court
determined that they were similarly situated comparators, with
absolutely no mention of the number of hours falsified or the
amount of wages stolen. This is, either shockingly or
outrageously, in stark contrast to the granular and purely
numerical differences fixated on in Mr. Campbell’s case.
The same court decided the same issue differently in two
cases with the same facts: A company fired a Black man for
falsifying company records; there were also White employees
who similarly falsified company records in violation of company
policy. But in one case there were no similarly situated

47 Blaise v. Verizon N.Y. Inc., No. 19-1028 (2nd Cir. March 19, 2020)
48 Id.

19

comparators, and in the other there were. A similar checklist
analysis in Mr. Campbell’s case would have resulted in his
comparators being similarly situated. But, instead of a jury
trial, Mr. Campbell got a flawed and inattentive math review.49
The same goes for Mr. Morales's case. The Court has an
opportunity here to bring order to the unconstitutional chaos
that plagues the fates of countless discrimination cases all over
America.

II. Petitioner Was Entitled To Deference And Good Math
There were many errors and genuine disputes of fact in
this case that should have prevented summary judgment from
being granted. Respondent and the lower courts either
committed significant miscalculations or they simply did not
understand the math involved in this case. Either way, once a
court starts doing math, there must be a genuine issue of
material fact regarding the result. The genuine fact disputes
are laid out in Respondent’s lower court filings and in the fact

49

See the mathematical analysis that was due, infra Section II.

20

section of this petition.
The lower courts accepted Bottling Group’s audit report
as valid and legitimate despite summary judgment standards
and the various issues the report had. “Summary judgment is
proper only when, construing the evidence in the light most
favorable to the non-movant, there is no genuine dispute as to
any material fact,” drawing all inferences in favor of the
nonmovant.50 The courts needed to view the evidence to favor
Mr. Campbell’s position as he never moved for summary
judgment.
The evidence was as follows: Respondent used a map
website that disclaimed accuracy; Respondent did not use actual
routes that Mr. Campbell drove; only minorities were fired as a
result of the audit; there were no maximum mile levels; there
was no mileage tracking policy until after Mr. Campbell was
fired. In a light that favors Mr. Campbell’s case, these facts
imply discrimination. Furthermore, in Respondent’s
Counterstatement of Material Facts, they twice write that there
was no policy or procedure about mileage tracking but Mr.

50 Tolan v. Cotton, 572 U.S. 650 (2014).

21

Campbell was aware of the mileage tracking policy.51 If that is
not a genuine dispute then that sentence must have been read
incorrectly.
In scrutinizing numbers in this case, as opposed to in
Verizon, the lower courts needed to thoroughly analyze what the
numbers meant. Mr. Campbell reported that he drove 1,876
miles; the audit reported 1,299; difference of 577. One of the
White comparators reported that they drove 460 miles; the audit
reported 404 miles; difference of 56. By either report, Mr.
Campbell drove much more and this is important when
rightfully considering that MapQuest was not accurate and
actual routes were not measured. Mr. Campbell had more miles
for MapQuest to incorrectly count and more routes to be
incorrectly measured. Mr. Campbell’s percentage error was
about 30%; the White merchandiser’s was about 10%.52 Mr.
Campbell drove about three times as many miles and the audit
showed about three times the percent error. The margin of

51 Counterstatement 64-main pp.3-4
52 These percent errors were calculated by Respondent and submitted to the
lower courts and they are clearly miscalculated. The actual percentages
would have helped Respondent’s case. However, this analysis focuses on the
proportions between the percentages and thus the correct numbers would
result in the same reasoning.

22

error would logically be higher in his case. Whether this was a
NASA error or an Enron error, however, is for a jury to decide.

CONCLUSION
The greatest engineers in the world got the math wrong
on a mission to Mars. The world’s best accountants and
financial analysts missed a massive fraud by a stock market
giant. In this case, an admittedly flawed audit calculation was
used to justify Mr. Campbell’s termination and was not given
due analysis. The courts inadequately reviewed the math
intensive and easily misleading audit. The calculation cost Mr.
Campbell his livelihood; summary judgment cost him his 7th
Amendment right to a jury, and justice.
The petition for a writ of certiorari should be granted.

23

